U.S. Department of                                       The Inspector General            Office of Inspector General
Transportation                                                                            Washington, DC 20590
Office of the Secretary
of Transportation


September 30, 2010

The Honorable Charles E. Grassley
Ranking Member, Committee on Finance
United States Senate
Washington, DC 20510

The Honorable Darrell Issa
Ranking Member, Committee on Oversight
 and Government Reform
United States House of Representatives
Washington, DC 20515

Dear Ranking Members Grassley and Issa:

Thank you for your August 23, 2010, letter requesting that we examine the
Department of Transportation’s Freedom of Information Act (FOIA) process to
determine whether or to what extent political appointees are made aware of
information requests and have a role in reviewing requests or making decisions. To
complete your request, we surveyed FOIA officers from the Office of the Secretary of
Transportation (OST) and 10 of the 11 Operating Administrations within the
Department. 1 We also interviewed FOIA officers from OST and 5 of the
11 Operating Administrations, which accounted for 94 percent of the Department’s
FOIA requests during fiscal year 2009. In addition, we reviewed lists of the
Department’s political appointees and supporting documentation from OST and the
Operating Administrations, such as memorandums and orders, to determine the level
of appointee involvement in the FOIA process. The three enclosures to this letter
provide more detail on the Department’s FOIA process, our scope and methodology,
and specific survey responses from the 11 FOIA officers.

Overall, we found that political appointees within the Department have a limited role
in reviewing and approving FOIA requests and responses. For example, in response
to our survey, 7 of the 11 FOIA officers (all 11 officers are career service employees)
stated that only career service employees review and approve FOIA responses prior to
1
    To maintain independence, we excluded the Office of Inspector General (OIG) from the scope of our review. However,
    we note that the Inspector General is the only appointed official within the OIG and is appointed by the President
    “without regard to political affiliation” (5 U.S.C. App. 3 § 3(a)).


CC-2010-071
                                                                                                                        2


release. The remaining four FOIA officers stated that political appointees only
occasionally review and approve FOIA responses based on their position as the
director of the particular organization providing the information.

We found no evidence suggesting that political appointees have impeded the FOIA
process within the Department. For example, in response to our survey, 10 of the
11 FOIA officers stated that they had no knowledge of any instances when a political
appointee delayed a FOIA request. 2 While several of the FOIA officers we
interviewed stated that they occasionally provide information on sensitive FOIA
requests to organizations such as their Public Affairs Office, they did so for
informational purposes only and usually at their own initiative. We also reviewed
hotline complaints made to our office over the past 8 years and found no allegations
of political interference or filtering involving the review and approval of FOIA
responses within the Department.

Finally, we found that there have been no substantive changes to the FOIA process
within the Department since 2008. In response to our survey, only 4 of the 11 FOIA
officers stated that their FOIA process has changed since January 2008. Those
changes, however, were minor and, according to the FOIA officers, made to either:
(1) reduce their backlog, (2) improve efficiency, or (3) centralize the process.
Additionally, 8 of the 11 FOIA officers stated they have received no verbal guidance
on political appointees’ involvement in their FOIA process. The remaining three
stated that they were asked to provide copies of media requests, or requests involving
other agencies, to their Public Affairs Office or Chief of Staff for informational
purposes only.

Thank you again for your attention to this important issue. If I can answer any
questions or be of further assistance, please contact me at (202) 366-1959 or my
Deputy, Ann Calvaresi Barr, at (202) 366-6767.

Sincerely,




Calvin L. Scovel III
Inspector General

Enclosure (3)


2
    One FOIA officer stated that on one occasion a political appointee delayed the release of a FOIA response because of
    possible media and environmental advocacy group publicity; however, this occurred during the prior Administration, and
    the FOIA request was subsequently released in full.


CC-2010-071
                                                                            Enclosure 1
                                                                            Page 1 of 2



BACKGROUND
The U.S. Department of Transportation is made up of the Office of the Secretary of
Transportation (OST) and 11 Operating Administrations:

• Federal Aviation Administration          • National Highway Traffic
  (FAA)                                      Safety Administration (NHTSA)
• Federal Highway Administration           • Office of Inspector General
  (FHWA)                                     (OIG)
• Federal Motor Carrier Safety             • Pipeline and Hazardous Materials
  Administration (FMCSA)                     Safety Administration (PHMSA)
• Federal Railroad Administration          • Research and Innovative
  (FRA)                                      Technology Administration (RITA)
• Federal Transit Administration           • Saint Lawrence Seaway
  (FTA)                                      Development Corporation (SLSDC)
• Maritime Administration
  (MARAD)

Each Operating Administration and OST is responsible for reviewing and approving
FOIA requests and responses pertaining to its organization. For example, FHWA
would handle a request for information regarding budget projections for a major
highway project.

While each Operating Administration and OST maintains central points of contact for
the facilitation of FOIA requests, some are too large to completely centralize their
FOIA process in one location. For example, FHWA—which has 52 division offices
nationwide—utilizes a decentralized FOIA process but has a primary FOIA officer in
Washington, DC. In contrast, smaller Operating Administrations, such as FRA,
typically have a centralized FOIA process and facilitate all requests through personnel
located in Washington, DC. In fiscal year 2009, the Department received more than
9,000 new requests for information and fulfilled nearly 9,300 (this number includes
requests carried over from the previous fiscal year). The table below shows the
number of FOIA requests that each Operating Administration and OST received and
processed in fiscal year 2009.




CC-2010-071
                                                                                               Enclosure 1
                                                                                               Page 2 of 2

                              Table. FOIA Requests Fiscal Year 2009


                   Number of Requests       Number of Requests      Number of Requests     Number of Requests
                   Pending as of Start of    Received in Fiscal       Closed in Fiscal      Pending as of End
                       Fiscal Year                 Year                    Year               of Fiscal Year

 FAA                                1,024                   6,169                  6,294                  899
 FHWA                                  48                     433                    431                   50
 FMCSA                                149                     932                    974                  107
 FRA                                  127                     373                    351                  149
 FTA                                   27                     201                    219                    9
 MARAD                                170                     109                     79                  200
 NHTSA                                 22                     267                    276                   13
 OIG                                   72                      88                    139                   21
 OST                                   65                     294                    334                   25
 PHMSA                                 46                     100                    132                   14
 RITA                                   1                      47                     48                    0
 SLSDC                                  0                       5                      5                    0
                                    1,751                   9,018                  9,282                1,487
 AGENCY
 OVERALL

Source: U.S. Department of Transportation Freedom of Information Act 2009 Annual Report




    CC-2010-071
                                                                           Enclosure 2




SCOPE AND METHODOLOGY
To determine the extent to which political appointees are made aware of FOIA
requests and participate in the review or decision-making processes, we conducted a
data collection instrument structured survey, interviewed agency officials, and
reviewed OIG hotline complaints. Our review covered the Department’s FOIA
practices and procedures from January 2008 to the present to ensure coverage of
multiple Presidential Administrations.

We administered the survey to the chief FOIA officers from OST and 10 of the
Department’s 11 Operating Administrations, excluding OIG for purposes of
independence. In addition, we conducted post-survey interviews with FOIA officers
from OST and 5 of the 11 Operating Administrations—those organizations that
received the highest number of FOIA requests in fiscal year 2009 (94 percent),
according to the Department’s annual FOIA report. We also conducted a follow-up
interview with the one FOIA officer who reported one instance of political appointee
involvement inconsistent with the Operating Administration’s normal FOIA processes
to learn more about circumstances surrounding that particular incident.

In the event that FOIA officers may not have been aware of all instances in which
political appointee involvement occurred outside of the Department’s normal FOIA
processes, we reviewed OIG’s hotline complaints. The OIG hotline facilitates the
reporting of allegations of fraud, waste, abuse, or mismanagement in Department
programs or operations. In reviewing complaint records dating back to May 2002, we
found no complaints associated with political appointee involvement in the FOIA
process.

We performed our work between August 26 and September 24, 2010. Due to the
condensed timeframes for this review, we performed select verification of information
provided in survey and interview responses. As the analysis performed indicated
little, if any, political appointee involvement outside of OST and the Operating
Administrations’ normal FOIA processes since January 2008, we limited our review
of documentary evidence to lists of all political appointees within the Department and
supporting internal documentation from OST and the Operating Administrations; this
included memorandums, orders, annual reports, and training agendas for the past
2 years.




CC-2010-071
                                                                            Enclosure 3
                                                                            Page 1 of 3



SUMMARY OF RESPONSES TO KEY SURVEY QUESTIONS
The following are summaries of answers to key questions given by the 11 FOIA
officers in response to our structured survey.

For your Operating Administration, please identify by name and title the
individuals who review and/or approve a FOIA response prior to release and
indicate if these individuals are career service or political appointees.

 • In response to this question, 7 of the 11 FOIA officers indicated that only career
   service employees are responsible for those duties; 4 of the 11 reported occasional
   political appointee involvement that is part of their normal Operating
   Administration’s FOIA review and approval process. For example, one FOIA
   officer stated that in the event she needs to confirm the information in a response
   is accurate, she may coordinate the response with appropriate program officials
   who are a mixture of political appointees and career service employees.

Please summarize any verbal direction you have received specific to political
appointees’ involvement in your Operating Administration’s process for
handling FOIA requests and responses (excluding the appeals process).

 • In response to this question, 8 of the 11 FOIA officers stated they had not received
   verbal direction regarding these issues. Three of the 11 FOIA officers told us they
   were asked to routinely inform offices such as Public Affairs (which could include
   political appointees) if requests or responses are from the media or not routine.
   Moreover, during our six interviews with the FOIA officers whose organizations
   receive the most requests, we asked if they had ever received direction regarding
   the release of potentially sensitive or controversial material that could attract
   media attention, such as the calendars of political appointees. All six FOIA
   officers responded no.

Has your Operating Administration’s FOIA review and approval process
changed since January 2008? If so, how, when, and why did it change?

 • In response to this question, seven FOIA officers indicated there has been no
   change. Four officers indicated there had been slight changes in attempts to
   improve FOIA process efficiency, such as centralizing the process in PHMSA in
   2009.




CC-2010-071
                                                                             Enclosure 3
                                                                             Page 2 of 3

   How long have you been your Operating Administration’s FOIA officer? If
   less than 2 years, please provide the name(s) of your Operating
   Administration’s prior FOIA officer(s) dating back to January 2008.

 • Eight of the 11 FOIA officers have held their positions for more than 2 years,
   spanning at least two Presidential Administrations. The longest serving FOIA
   officer has been in that position since 1993.

Do you have knowledge of any instances since January 2008 when a political
appointee asked to review FOIA information prior to its release outside of your
Operating Administration’s normal FOIA processes? If so, please briefly
describe the circumstances (i.e., 4-6 sentences).

 • In response to this question, eight FOIA officers said they had no recollection of
   any such instances. Two FOIA officers reported an instance each when a political
   appointee asked to review a response prior to release, but in follow-up interviews
   both stated the review was for informational purposes only and did not feel the
   review was intended to delay or hinder the response release. One respondent did
   state there was one instance (during the prior Administration) when a political
   appointee delayed a FOIA response by several months due to high visibility
   among environmental groups and the media. However, the respondent said the
   delay revealed an error in performing a reasonable search with regard to the
   original response, which was corrected to the requestor’s benefit, and the final
   response was provided in full.

Have you ever felt political pressure to perform your FOIA duties in a manner in
which you were uncomfortable? If so, please briefly describe the circumstances
(i.e. 4-6 sentences).

 • In response to this question, 10 of the 11 FOIA officers responded no. The one
   FOIA officer who responded yes to the question referred to the instance described
   in the preceding question.

Since January 2008, do you have knowledge of any employees within your
Operating Administration who have been reprimanded or otherwise disciplined
for releasing information in response to a FOIA without approval or review by a
political appointee? If so, please briefly describe the circumstances (i.e. 4-6
sentences).

 • In response to this question, all 11 FOIA officers responded no. In addition, all six
   FOIA officers we interviewed said they had no knowledge of employees
   elsewhere within the Department that had been reprimanded for releasing
   information in response to a FOIA request without review or approval by a
   political appointee.


CC-2010-071
                                                                              Enclosure 3
                                                                              Page 3 of 3

Are there any other issues related to political appointee involvement in the FOIA
process that have not been addressed above which you believe we should be
aware of? If so, please briefly describe the circumstances (i.e. 4-6 sentences).

 • In response to this question, all 11 FOIA officers responded no.

During follow-up interviews with the six FOIA officers, we asked three additional
questions regarding potential impediments to the FOIA process that could be
considered politically motivated. Specifically, the FOIA officers told us their
organizations had never:

 • engaged in political filtering of FOIA requests,

 • probed for information about FOIA requestors, or

 • specified or recorded the party affiliation of congressional requestors.




CC-2010-071
